                                      NATIONAL SCIENCE FOLINDATION
                                              4201 WILSON BOULEVARD
                                             ARLINGTON, VIRGINIA 22230




             OFFICE OF
         INSPECTOR GENERAL




                        -
 MEMORANDUM

 Date:                  March 25, 1997
 .   .   ..     .- ._                            .~._
                                                    ._. .

 To:                    I96070043

 From:

 Via:
                                                            '7
                                             pecial Agent-in-Ch

 Re:                    Resolution of Case

 O n May 28, 1996, our office received an allegation from U.S. Air Force (USAF) Office of
 Special Investigations (OSI) Special Agent -that                        9,
                                                                         an employee of the
 University of Arizona, was obtainin federa excess property from the Defense Reutilization
 Marketing Office (DRMO) at                    Air Force Base for supposed use on USAF and
 NSF grants, and then diverting the excess property for his own use. Specifically, it was
 alleged t h a t m obtained, among other things, a crane from the DRMO but that the
 University of Arizona can not account for this piece of property.

 A review of NSF records showed that approximately 17 NSF 'grants were used by the
 University of Arizona to obtain federal excess property. However, of all of the requests for
 federal property made under these grants           name and signature only appear once (the
 form it appears on does not request a               In addition, investigation by S/A
 determined that USAF resources were not misappropriated by=           and that, in any event,
 the Defense Criminal Investigative Service (DCIS) was the cognizant Department of Defense
 component managing investigations involving DRMOs. Thus, on September 9, 1996, S/A
c l o s e d his investigation of this matter and transferred the allegation to DCIS.

 Our office contacted DCIS S/A                        and was informed that DCIS has yet to
 formally open an investigation                                        reported that during his
 preliminary investigation of this matter he could fin                  of any crane being sold
       -
 through   anv of the area DRMOs    and no record  of the Universitv
 crane through the federal excess property program. Because of S/A
                                                                     of                - .-
                                                                        Arizona ever acauiring a
                                                                                    preliminary
 results, problems associated with successfully prosecuting one of
 cases, see attached memo), and the fact tha; DCIS has yet to open an investigation of this
 matter, further use of NSF OIG investigation resources are not warranted at this time. This
 case is closed.
